No. 20-1578

In The
Supreme Court of the United States
William “Will” Andrew Graven,
Plaintiff, Appellant, Petitioner,
v.
State of Arizona (but in-fact Defendants'. [Former] Asst Attorney General
Michael Bailey; [Former] Chief, Criminal Division Don Conrad; [Former]
Chief Prosecutor Paul Ahler; Asst Attorney General Joe Waters; Criminal
Division Legal Administrator Lisa Rodriguez; and [Former] Chief, Special
Investigations Section Mark Perkovich; all 6 of whom the State vrevented me
from Serving pwhich see later! and so the State by default fwhich see laterIL
Defendants, Appellees, Respondents.
______(please note use of plural, which see more about later)_______

PETITION FOR REHEARING

PROOF OF SERVICE
I do swear and declare that on this day, June 18, 2021, that I served the
enclosed Petition for Rehearing with exhibit to Respondents’ counsel of
record, Mark Dangerfield of Gallaher & Kennedy in Phoenix, Arizona. A
copy of my Petition was sent to them via email to addresses for Mr.
Dangerfield and his assistant that I have used for years.

William “Will” A. Graven, Petitioner, In Pro Se
2700 S. Woodlands Village Blvd.
Suite 300-251
Flagstaff, AZ 86001
928-890-8825

